FEBRUARY 25, 2009
  AUDIT REPORT




                                                      OFFICE OF AUDITS




NASA’S CONSTELLATION STANDING REVIEW BOARDS
 ESTABLISHED WITHOUT DUE REGARD FOR MEMBER
         INDEPENDENCE REQUIREMENTS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-09-011 (ASSIGNMENT NO. S-08-021-00)
Final report released by:



       signed
Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

CSSS         Constellation Space Suit Systems
CxP          Constellation Program
EVA          Extravehicular Activity
FACA         Federal Advisory Committee Act
GAO          Government Accountability Office
IPAO         Independent Program Assessment Office
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
OGC          Office of General Counsel
OIG          Office of Inspector General
SAIC         Science Applications International Corporation
SRB          Standing Review Board


                                                              REPORT NO. IG-09-011
FEBRUARY 25, 2009




                                                                                            OVERVIEW

            NASA’S CONSTELLATION STANDING REVIEW BOARDS
             ESTABLISHED WITHOUT DUE REGARD FOR MEMBER
                     INDEPENDENCE REQUIREMENTS

                                                                                              The Issue

   NASA established Standing Review Boards (SRBs) to ensure certain Agency projects are
   reviewed by groups of uniquely qualified experts who can provide, essentially, quality
   control reviews throughout the project’s life cycles. 1 Agency directives require that SRB
   members be independent of the program or project they review (i.e., unbiased and outside
   the advocacy chain of the program or project) to ensure that the SRB can provide an
   impartial, unbiased opinion of the program or project’s potential success. This report
   addresses the SRBs for the Constellation Program (CxP) and the CxP projects. Our
   objective was to determine the independence of the members of those SRBs.

   This report follows up on and expands the scope of our April 2008 report concerning
   independence and conflict-of-interest issues involving the SRB for CxP’s Orion Project. 2
   In that report, we state that NASA did not establish the Orion SRB in accordance with
   Federal law or NASA guidance. The Orion SRB met the Federal Advisory Committee
   Act 3 (FACA) definition of an advisory committee. Although advisory committees
   meeting this definition must be established in accordance with FACA and NASA Policy
   Directive (NPD) 1150.11, “Federal Advisory Committee Act Committees,” September
   22, 2004, the Orion SRB was not. Had NASA initially recognized the Orion SRB as an
   advisory committee subject to FACA, NASA’s ethics process associated with advisory
   committee participation would have been triggered, resulting in a focus on board member
   independence and conflict of interest resolution. We found that 6 of the Orion SRB’s
   19 members were not fully independent of the Orion Project, as required by NASA
   Procedural Requirements (NPR) 7120.5D, “NASA Space Flight Program and Project
   Management Requirements,” March 6, 2007. All 6 were employees of companies having
   contracts for Orion work and 4 of the 6 were also stockholders. In addition to the Orion
   SRB, NASA initiated SRBs for the Constellation Program itself and CxP’s other projects:

   1
       NASA’s program and project “life cycles” includes independent review milestones such as the System
       Requirements Review, System Definition Review, Preliminary Design Review, and Critical Design
       Review.
   2
       NASA Office of Inspector General, “Final Memorandum on the Standing Review Board for the Orion
       Crew Exploration Vehicle Project” (Report No. IG-08-018, April 28, 2008).
   3
       Title 5, United States Code (5 U.S.C.), Sections 1–16, the Federal Advisory Committee Act (1972), as
       amended.



REPORT NO. IG-09-011
                                                                                             OVERVIEW



     Ares Project, Extravehicular Activity (EVA) Systems Project, Ground Operations
     Project, and Mission Operations Project. Details of the review’s scope and methodology
     are in Appendix A.

     Results

     We found 21 SRB members—close to one-third of all non-Federal CxP SRB members—
     with conflicts of interest and determined that each of the SRBs for CxP and its
     constituent Projects included at least one non-Federal Government employee who was
     conflicted. Specifically, each SRB included at least one non-Federal Government
     employee who was an employee or consultant of a NASA contractor with an interest in
     or contract with either CxP or one of its projects. For example, the 12 non-Federal
     members of the CxP SRB included 4 members (33 percent) who were not independent.
     Table 1 below summarizes the extent of conflict-of-interest issues found amongst non-
     Federal Government employees of the CxP SRB and CxP project SRBs.

                             Table 1. Composition of Constellation Program
                   Standing Review Boards (SRBs) Non-Federal Government Employees
                                             (as of October 1, 2008)

                                                               Members with Conflicts
                                   Number of                                 Percentage of
                                  Non-Federal                                Non-Federal
                                  Government                                 Government
                SRB                Employees                  Total           Employees
                CxP                   12                       4                   33
                Ares                   10                       2                   20
                EVA                     8                       2                   25
                Systems
                Ground                 13                       6                   46
                Operations
                Mission                 8                       1                   13
                Operations
                Oriona                 15                       6                   40
            a
                As reported in NASA OIG Report No. IG-08-018 (April 28, 2008).

     This condition occurred because NASA’s procedures for determining the independence
     of an SRB member were inadequate. Specifically, because the SRBs met the definition
     of FACA committees but were not organized under FACA, they did not trigger the ethics
     review process associated with the establishment of FACA committees. Instead, NASA
     used a process that was lacking in both rigor and accuracy for determining independence
     of SRB members. For example, we identified seven SRB members who failed to indicate



ii                                                                               REPORT NO. IG-09-011
OVERVIEW



   on their self-assessment forms that they were employed by companies receiving funding
   from CxP or CxP projects.

   Because SRB members were not independent, NASA lacked assurance that SRB
   members provided impartial and unbiased opinions on the project’s success in meeting
   technical, schedule, and cost-related milestones. Furthermore, by not verifying an SRB
   member’s independence, NASA placed the SRB member at risk of violating the
   Procurement Integrity Act because the Agency did not take precautions, as required by
   the Act, to ensure that certain persons do not have access to source selection information
   that the Agency had not previously made available to the public.

                                                                Management Action

   In November 2008, NASA took actions to address our concerns with FACA and the
   conflict-of-interest issues. Specifically, NASA initiated the Constellation Program and
   Project SRB Alignment and Continuous Improvement Activity with the objective of
   ensuring all SRBs maintain the highest level of technical expertise, currency, and
   independence. Between November 2008 and February 2009, the Agency will “pause”
   most CxP SRB activities while it addresses the FACA and conflict of interest compliance
   issues we disclosed in our April 2008 report. NASA plans to adopt an annual SRB
   review process that includes a disclosure document similar to the confidential financial
   disclosure report that Federal employees must file annually. In addition, the Agency
   plans to conduct a review for best practices and improvements to include transitioning
   the SRBs to be FACA compliant. We will continue to monitor these activities to assure
   consistency of management action with Federal law and NASA policy.

   In our January 16, 2009, draft of this report, we recommended that prior to reactivating
   the CxP SRBs, the Associate Administrator for Program Analysis and Evaluation
   implement adequate procedures to ensure identification of SRB members who have
   conflicts of interest and that NASA’s Chief Engineer include or reference the
   implemented procedures in an applicable Agency requirements document.

   The Associate Administrator for Program Analysis and Evaluation concurred with our
   recommendation to implement procedures to ensure identification of SRB members who
   have conflicts of interest and stated that he incorporated such procedures into Program
   Analysis and Evaluation guidance to be released by March 31, 2009. NASA’s Chief
   Engineer concurred with our recommendation to include or reference implemented
   procedures in an applicable Agency requirements document and will update
   NPR 7120.5D to reference the Program Analysis and Evaluation guidance.
   Management’s comments are responsive; however, both recommendations will remain
   open until we have verified that the SRBs were reestablished in a manner consistent with
   Federal law and revised agency guidance. (See Appendix D for the full text of
   management’s comments.)



REPORT NO. IG-09-011                                                                            iii
FEBRUARY 25, 2009




                                                        CONTENTS

   INTRODUCTION
      Background __________________________________________ 1
      Objective ____________________________________________ 4

   RESULTS
      Standing Review Board Members Were Not Independent of the
         Constellation Program _______________________________ 5

   APPENDIX A
      Scope and Methodology _______________________________ 17
      Review of Internal Controls _____________________________ 18
      Prior Coverage_______________________________________ 18

   APPENDIX B
      Initial Self-Assessment ________________________________ 19

   APPENDIX C
      Proposed Self-Assessment _____________________________ 23

   APPENDIX D
      Management Comments _______________________________ 29

   APPENDIX E
      Report Distribution ___________________________________ 32




REPORT NO. IG-09-011
INTRODUCTION




                                                                                 INTRODUCTION


Background

   The Constellation Program (CxP) is responsible for designing and developing the next
   generation of NASA space vehicles that will return human explorers to the moon and
   carry them onward to Mars. CxP is a tightly-coupled program with multiple projects and
   each executes portions of CxP’s mission. CxP consists of six major projects—the Orion
   Crew Exploration Vehicle (Orion), Crew and Cargo Launch Vehicles (Ares I and Ares
   V), Ground Operations, Mission Operations, Extravehicular Activity (EVA) Systems,
   and Lunar Lander (Altair)—all of which are managed independently but are
   interdependent because no single project is capable of implementing the complete
   mission. For example, Ground Operations will provide the infrastructure for the Orion
   vehicle to launch on Ares I supported by Mission Operations, and the EVA Systems will
   develop elements (i.e., spacesuits) to protect the Orion crewmembers.

   Standing Review Boards (SRBs). NASA established SRBs for CxP and each of its six
   projects to conduct a series of independent reviews throughout the program’s and
   projects’ life cycles. The reviews include assessments on the adequacy and credibility of
   the program or project’s technical and management approaches, schedules, resources,
   costs, and risks; compliance with Agency management and systems engineering
   guidance; and readiness to proceed to the next life-cycle phase. NASA’s Independent
   Program Assessment Office (IPAO), part of the Office of Program Analysis and
   Evaluation, prepares the SRB nomination packages, which are then approved by the
   program or project’s convening authority. 4 The number of SRB members differs based
   on a project’s complexity, but each SRB has a single chairperson and a NASA Review
   Manager, who assists the chairperson in interfacing with the NASA program and project
   managers. Although IPAO can augment a particular SRB with specialized reviewers
   when needed, the concept is to have the same core membership for the duration of the
   project. Even though the SRBs are advisory and do not have authority over any program
   or project content, NASA management must consider the SRB’s input when deciding
   whether the program or project should proceed to the next phase of development.

   SRB Guidance. NASA Procedural Requirements (NPR) 7120.5D, “NASA Space Flight
   Program and Project Management Requirements,” March 6, 2007, which provides
   guidance for establishing SRBs, was revised in response to multiple Government
   Accountability Office (GAO) reports that recommended NASA change its approach to

   4
       Convening authorities vary with the significance of the program or project under review. For the CxP
       and associated projects, the convening authority included the NASA Associate Administrator; the NASA
       Chief Engineer; the Associate Administrator for Exploration Systems; the Associate Administrator for
       Program Analysis and Evaluation; and the Director of the responsible center.



REPORT NO. IG-09-011                                                                                          1
                                                                                              INTRODUCTION



    program and project management, specifically as it related to the acquisition process. 5
    NPR 7120.5D notes that board members are chosen based on their management,
    technical, safety and mission assurance expertise, their objectivity, and their ability to
    make a broad assessment of a program/project that employs numerous engineering and
    other disciplines. SRB reviews assessing, for example, program/project technical and
    management approaches, resources, and related costs would bring industry expertise to
    bear on project-specific investment decisions. NPR 7120.5D requires that SRB members
    be independent of the program or project under review; that is, none of the members
    should have a stake in the outcome of any of the life-cycle reviews or in the program or
    project itself. The NPR requires independence to ensure that the SRB can provide an
    impartial, unbiased opinion of the program or project’s success. The CxP and its
    associated projects were NASA’s first space flight program and projects to implement the
    new guidance.

    In addition to NPR 7120.5D, IPAO developed the draft “SRB Handbook, 6 Version 1.0,”
    August 1, 2007, to supplement that guidance. The Handbook contains guidelines for
    SRBs such as organizational structure, roles and responsibilities, processes the SRB must
    implement, and products it must produce to support the Agency’s implementation of its
    integrated independent life-cycle review process.

    Office of Inspector General’s (OIG) Previous Review of the Orion SRB. In our
    “Final Memorandum on the Standing Review Board for the Orion Crew Exploration
    Vehicle Project” (Report No. IG-08-018, April 28, 2008), we showed that the Orion
    SRB’s purpose, responsibilities, and membership met the definition and characteristics of
    a committee that should be established under the Federal Advisory Committee Act
    (FACA). FACA generally applies to committees that (1) are established by a Federal
    official, (2) include at least one non-Federal Government employee, and (3) are
    responsible for providing advice and recommendations to the agency. Because the Orion
    SRB established by NASA included 15 non-Federal Government employees, and its
    primary responsibility was to provide NASA management an advisory opinion of the
    Orion Project’s success in meeting technical, schedule, and cost-related milestones, we
    conducted further analysis of FACA and FACA-related case law to consider FACA’s
    applicability to the Orion SRB. Based on that analysis, we believe that FACA did apply
    to the Orion SRB; therefore, the SRB should have been established and operated in
    accordance with FACA. NASA Policy Directive (NPD) 1150.11, “Federal Advisory
    Committee Act Committees,” September 22, 2004, requires that NASA employees
    coordinate with the Office of the General Counsel (OGC) when committees or teams
    involving non-NASA personnel are established to ensure that the Agency complies with

    5
        For example, GAO’s report, “NASA-Implementing a Knowledge-Based Acquisition Framework Could
        Lead to Better Investment Decisions and Project Outcomes” (GAO-06-218, December 21, 2005), stated
        that NASA’s acquisition framework did not provide the information needed to make major investment
        decisions, which contributed to NASA’s difficulties in meeting cost, schedule, and performance
        objectives for its programs and projects.
    6
        The draft SRB Handbook, undergoing Agency review, will be released once the review is completed.



2                                                                                    REPORT NO. IG-09-011
INTRODUCTION



   FACA if it is applicable. There was no coordination with the OGC when the Orion SRB
   was established.

   Although advisory committees meeting the definition and having the characteristics
   outlined by FACA must be established in accordance with FACA and NPD 1150.11, the
   Orion SRB was not. Had NASA initially recognized the Orion SRB as an advisory
   committee subject to FACA, NASA’s ethics process associated with advisory committee
   participation would have been triggered, resulting in a focus on board member
   independence and conflict of interest resolution. Furthermore, we found that six of the
   Orion SRB members, including the Chair, were not independent of the Orion Project, as
   required by NPR 7120.5D. Those six Orion SRB members were employees (and in four
   cases were also stockholders) of companies having contracts for Orion work. Because of
   their employee/stockholder status, those members had a vested interest in Project
   assessments concerning the adequacy and credibility of technical and management
   approaches, schedules, resources, costs, and risks; compliance with Agency management
   and systems engineering guidance; and readiness to proceed to the next life-cycle phase.
   Thus, they were unsuited to serve on an advisory board that emphasizes “objectivity and
   independence.” We determined that their employee/stockholder status created an
   organizational conflict of interest between the members’ employers and NASA.

   We recommended that the Associate Administrator for Program Analysis and Evaluation,
   in coordination with the OGC and the Office of the Chief Engineer, suspend the
   involvement of the six Orion SRB members found to be not independent of the Project
   from further SRB activities until an evaluation of the legality and propriety of the
   participation of these individuals in the SRB was concluded. That evaluation should
   include an analysis of whether the Orion SRB should be reorganized under FACA and
   whether the ethical rules for special Government employees are implicated. To ensure
   that the lessons learned from the issues associated with the establishment of the Orion
   SRB are incorporated into NASA practice more generally, we also recommended that the
   Agency evaluate the purpose, roles, responsibilities, and membership of SRBs to
   determine the optimum approach for accomplishing the SRB mission while ensuring
   compliance with all applicable Federal laws and NASA guidance. We further
   recommended that, based on the evaluation results, the Agency should revise
   NPR 7120.5D and NASA’s draft SRB Handbook to reflect any revised SRB roles,
   responsibilities, and membership requirements.

   In our April 2008 final report, we found the Agency’s response to our recommendations
   to be nonresponsive. However, subsequent management action resulted in the issuance
   of our February 9, 2009, “Addendum to Final Memorandum on the Standing Review
   Board for the Orion Crew Exploration Vehicle Project,” which summarized
   management’s actions that were responsive to the intent of the recommendations. The
   recommendations are resolved, but remain open pending completion and verification of
   the corrective actions.




REPORT NO. IG-09-011                                                                          3
                                                                                               INTRODUCTION



Objective

    The objective of this review was to determine the independence of the members of the
    remaining SRBs for CxP and CxP projects. 7 We also reviewed internal controls as they
    related to the objective. See Appendix A for details of the review’s scope and
    methodology, our review of internal controls, and a list of prior coverage.




    7
        We did not review the Altair SRB because it was temporary–established in June 2008, using members of
        other SRBs, to conduct the Mission Concept Review and disbanded in October 2008 upon completion of
        that review.



4                                                                                     REPORT NO. IG-09-011
RESULTS




                                                    STANDING REVIEW BOARD
                                                        MEMBERS WERE NOT
                                                        INDEPENDENT OF THE
                                                    CONSTELLATION PROGRAM

          Each CxP SRB included non-Federal Government employees who were employees
          or consultants of NASA contractors that had an interest in or a contract with either
          CxP or one of its projects. For example, the 12 non-Federal members of the CxP
          SRB included 4 members (33 percent) who were not independent of CxP or its
          Projects. This condition occurred because NASA did not have adequate procedures
          to determine if the members were independent. Specifically, because the SRBs were
          not organized under FACA, it did not trigger the ethics review process. As a result
          of this condition, NASA lacked assurance that SRB members provided impartial and
          unbiased opinions on the project’s success in meeting technical, schedule, and cost-
          related milestones because SRB members had a vested interest in project assessment
          outcomes. Furthermore, by not verifying an SRB member’s independence, NASA
          places the SRB member at risk of violating the Procurement Integrity Act because
          the Agency did not take precautions, as required by the Act, to ensure that access to
          source selection information, which the Agency had not previously made available to
          the public, is limited to only the appropriate personnel.

FACA Applicability

   FACA. FACA was enacted in 1972 to formalize the process for establishing, operating,
   and terminating advisory committees that are formed to provide expert advice to
   Executive Branch agencies concerning Federal policies and programs. The membership
   of these advisory committees includes non-Federal Government employees, which
   provides a unique opportunity for the public to participate actively in the Federal
   Government’s decision-making process.

   To ensure that FACA applicability is appropriately considered for NASA committees,
   NPD 1150.11 requires NASA personnel to coordinate with the OGC prior to establishing
   committees that will include non-NASA personnel. Once the OGC renders the opinion
   that FACA is applicable, the advisory committee must operate in a manner fully
   consistent with the provisions of the Act.




REPORT NO. IG-09-011                                                                          5
                                                                                                         RESULTS



    Applicability of FACA to the CxP SRBs. Because each of the CxP SRBs were
    established and managed like the Orion SRB, they also meet the definition of a FACA
    committee. FACA generally applies to committees that (1) are established by a Federal
    official, (2) include at least one non-Federal Government employee, and (3) are
    responsible for providing advice and recommendations to the agency. This places each
    of the CxP SRBs in violation of FACA.

    Office of General Counsel Coordination. The CxP SRBs were not identified as an
    advisory committee subject to FACA because IPAO convened the SRBs without first
    coordinating with the OGC as required by NPD 1150.11. NPD 1150.11 states that “all
    employees are responsible for coordinating with the Office of the General Counsel
    regarding the establishment of committees or teams involving non-NASA personnel.” At
    a minimum, the IPAO Director should have discussed the issue with the OGC, which
    would have provided the OGC an opportunity to render a decision concerning FACA’s
    applicability to the CxP SRBs.

Independence Requirements

    In addition to the NPR 7120.5D requirement that SRB members be independent of the
    project under review, IPAO required each of the candidate SRB members to complete the
    “Personal, External, and Organizational Independence, and Political Influence Self-
    Assessment,” September 28, 2005 (see Appendix B), to identify potential independence
    impairments or conflict-of-interest situations. In the self-assessment, each candidate
    provided yes or no answers to questions in seven categories, including financial interests,
    undue influence, and employment. A yes answer would indicate a potential impairment
    to independence and required the candidate to provide additional information. For
    example, a question from the “Current or Former Employee” section asked, “Have you
    ever directly worked for the program or project being reviewed or been an employee of a
    contractor that receives funding from the program or project being reviewed?” If the
    candidate answered yes, he or she then had to provide details of that employment, to be
    used in conjunction with the self-assessment to determine the candidate’s fitness for SRB
    participation.

    OIG Determination of Compliance with Independence Requirements. We reviewed
    the self-assessments and biographies submitted by each non-Federal SRB member. We
    focused our review on the non-Federal members because they were not subject to the
    more robust financial disclosure and criminal conflict-of-interest provisions of Title 18,
    United States Code, Section 208, which applies to Federal employees and “Special
    Government Employees.” 8 From our review, we identified all the companies employing
    SRB members as either an employee or a consultant. We then researched NASA
    procurement records and company Web sites to ascertain whether the companies
    performed work as either a prime contractor or subcontractor for CxP or its constituent

    8
        We note that had the Agency used the required FACA process, all of these persons could have been
        deemed Special Government Employees and subject to the conflict of interest provisions of Title 18.



6                                                                                       REPORT NO. IG-09-011
RESULTS



   projects. Because each CxP project is dependent on the successful outcome of the other
   projects, we considered it a conflict of interest if an SRB member was an employee or
   consultant of any CxP contractor.

Conflicts of Interest

   Based on our review, we determined that each SRB contained at least one non-Federal
   Government employee who was not independent of CxP or its projects. We calculated
   the percentage of members with conflicts compared to the total number of members as
   well as the number of non-Federal members. Table 2 below summarizes the extent of
   conflict-of-interest issues found in the CxP SRB and CxP project SRBs.

          Table 2. Composition of Constellation Program Standing Review Boards (SRBs)
                                           (as of October 1, 2008)

                                                                 Members with Conflicts

                       Number of Members                                          Percentage of
                              Non-Federal                                         Non-Federal
                              Government                             Percentage   Government
             SRB       Total   Employees                Total         of Total     Employees
       CxP              16        12                       4            25                33
       Ares              16           10                   2            13                20
       EVA               11            8                   2            18                25
       Systems
       Ground            17           13                   6            35                46
       Operations
       Mission           11            8                   1             9                13
       Operations
       Oriona            19           15                   6            32                40
   a
       As reported in NASA OIG Report No. IG-08-018 (April 28, 2008).

   CxP SRB. NASA established an independent review team in the early summer of 2006
   to conduct a Preliminary Non-Advocate Review of CxP at the conclusion of the
   Constellation constituent project System Requirements Reviews. These reviews were
   scheduled to be completed in early 2007, and the independent review team was expected
   to report to the Agency Program Management Council in June 2007.

   However, in August 2006, NASA was drafting an update to NPR 7120.5D (released on
   March 6, 2007) to implement significant changes in the scope and conduct of
   independent review teams. In fact, independent review teams were being replaced with
   SRBs, which would conduct multiple life-cycle reviews beginning with an assessment at
   the System Requirements Review. Since the CxP independent review team was already


REPORT NO. IG-09-011                                                                              7
                                                                                       RESULTS



    in place, NASA management allowed the team to complete its CxP System Requirements
    Review and provide an informal outbrief and report to the CxP Manager. On
    December 5, 2006, in anticipation of the updated guidance, NASA management
    disbanded the independent review team following submission of their preliminary
    observations report to the CxP Manager.

    In May 2007, NASA established the CxP SRB in accordance with the updated NPR. The
    CxP SRB comprised 16 members, of whom 12 were non-Federal Government
    employees. The CxP SRB participated in the June 2008 Systems Definition Review.
    The next technical review the CxP SRB is scheduled to participate in is the Preliminary
    Design Review scheduled for July 2009.

    Of the 16 members, we determined that 4 members (25 percent of the total board and
    33 percent of the non-Federal membership) were not independent of the CxP or its
    projects. Specifically, we found the following:

       •   One member was an employee of the ARES Corporation, which provides
           program planning and control support to CxP as a subcontractor on NASA’s
           Constellation Program Support Contract awarded to Stinger Ghaffarian
           Technologies on February 28, 2008.

       •   One member was an employee of Lee & Associates, which provides engineering
           and technical services to the Ares Project under a blanket purchase agreement.

       •   Two members were employees of Science Applications International Corporation
           (SAIC), which supports CxP and the Orion Project with program planning and
           control services under the Agency’s Constellation/Crew Exploration Vehicle
           Engineering Service Contract and with safety and mission assurance services
           under a Johnson Space Center contract.

    Ares SRB. The Ares SRB was established in May 2007 to conduct the reviews for the
    Constellation launch vehicle Ares I project. The launch vehicle delivers crew to Earth
    orbit as well as trans-lunar trajectories. The Ares SRB comprised 16 members, 10 of
    whom were non-Federal Government employees. The Ares SRB participated in the
    October 2007 Systems Definition Review and the September 2008 Preliminary Design
    Review. The next technical review the Ares SRB is scheduled to participate in is the
    Critical Design Review scheduled for March 2011.

    Of the 16 members of the Ares SRB, we determined that 2 members (13 percent of the
    total board and 20 percent of the non-Federal membership) were not independent of the
    Ares Project or CxP. Specifically, we found the following:

       •   One member was an employee of Quality Assurance & Risk Management
           Services, a subcontractor to Honeywell Technology Solutions, Inc. (Honeywell)
           (a business segment under Honeywell Aerospace, which is a business segment



8                                                                        REPORT NO. IG-09-011
RESULTS



          under Honeywell International, Inc.). Quality Assurance & Risk Management
          Services provides safety-related services to the Ares Project under the Agency’s
          NASA Contract Assurance Service Contract.

      •   One member was an employee of SAIC, identified above in relation to the CxP
          SRB.

   EVA Systems SRB. The EVA Systems SRB was established in March 2007 to provide
   an independent assessment of the EVA Systems Project’s technical and programmatic
   approach, risk posture, and readiness to proceed to the next life-cycle phase. The EVA
   Systems includes the elements (pressure suits, EVA life-support systems, EVA tools, and
   mobility aids) necessary to protect crewmembers and allow them to work effectively during
   all mission phases in environments that cannot sustain human existence. The EVA Systems
   SRB membership comprised 11 members, 8 of whom were non-Federal Government
   employees. The EVA Systems SRB participated in the April 2007 System Requirements
   Review and the May 2008 Systems Definition Review. The next technical reviews the
   EVA Systems SRB is scheduled to participate in are the Preliminary Design Review
   scheduled for September 2009 and the Non-Advocate Review scheduled for November
   2009.

   Of the 11 members, we determined that 2 members (18 percent of the total board and
   25 percent of the non-Federal membership) were not independent of the EVA Project or
   the Orion Project. (Not included here was a third conflicted SRB member, discussed on
   page 13, whose participation was terminated prior to the October 1, 2008, timeframe
   covered in this section.) Specifically, we found the following:

      •   One member was an employee of Honeywell, which is a subcontractor to
          Lockheed Martin on Johnson Space Center’s Orion Crew Exploration Vehicle
          Contract and part of a contractor team competing for the Agency’s Constellation
          Space Suit Systems (CSSS) contract and also subcontracts work to Quality
          Assurance & Risk Management Services identified above in relation to the Ares
          SRB.

      •   One member was an employee of Lockheed Martin, Inc., the prime contractor for
          the Orion Project’s Crew Exploration Vehicle Contract.

   Ground Operations SRB. The Ground Operations SRB was established in March 2007
   to conduct the Ground Systems life-cycle reviews. Ground Systems provides the launch
   site ground processing, integrated testing, logistics services, and launch services for
   Orion and Ares, and post-landing, recovery and de-integration services for the Orion and
   the Ares solid rocket boosters. The Ground Operations SRB membership comprised
   17 members, 13 of whom were non-Federal Government employees. The Ground
   Operations SRB participated in the May 2007 System Requirements Review and the May
   2008 Systems Definition Review. The next technical reviews the Ground Operations




REPORT NO. IG-09-011                                                                           9
                                                                                           RESULTS



     SRB is scheduled to participate in are the Preliminary Design Review scheduled for
     April 2009 and the Non-Advocate Review scheduled for July 2009.

     Of the 17 members, we determined that 6 members (35 percent of the total board and
     46 percent of the non-Federal membership) were not independent of the CxP or its
     projects. Specifically, we found the following:

        •   One member was an employee of Analex Corporation, which is the prime
            contractor on Kennedy Space Center’s Launch Service Program Expendable
            Launch Vehicle Integrated Services Contract and provides technical analysis and
            document reviews for the Ground Operations Project.

        •   One member was an employee of ASRC Aerospace, which provides engineering,
            configuration management, and project management services to CxP and the
            Ground Operations Project under its University-affiliated Spaceport Technology
            Development Contract with Kennedy Space Center.

        •   One member was an employee of Honeywell, identified above in relation the Ares
            SRB and the EVA Systems SRB. Honeywell is a subcontractor to Lockheed
            Martin (also identified above in relation to the EVA Systems SRB) on the Orion
            Crew Exploration Vehicle Contract and a member of a contractor team competing
            for the Agency’s CSSS.

        •   Two members were employees of Lee & Associates, identified above in relation
            to the CxP SRB.

        •   One member was an employee of Tecolote Research, Inc., which provides cost
            estimating support to CxP.

     Mission Operations SRB. The Mission Operations SRB was established in
     February 2007 to conduct the Mission Systems’ life-cycle reviews. Mission Systems
     includes the Mission Control Center in Houston and its interfaces with the flight systems
     for flight operations; crew and flight controller training facilities; mission planning and
     flight design tools; personnel for planning, training, and flight operations; and Mission
     Operations facilities development and maintenance. The Mission Operations SRB
     membership comprised 11 members, 8 of whom were non-Federal Government
     employees. The Mission Operations SRB participated in the March 2007 System
     Requirements Review and the March 2008 Systems Definition Review. The next
     technical reviews the Mission Operations SRB is scheduled to participate in are the
     Preliminary Design Review scheduled for February 2010 and the Non-Advocate Review
     in May 2010.

     Of the 11 members of the Mission Operations SRB, we determined that 1 member
     (9 percent of the total board and 13 percent of the non-Federal membership) was not




10                                                                          REPORT NO. IG-09-011
RESULTS



   independent of the Ares Project and CxP. Specifically, we found that one member was
   an employee of SAIC, identified above in relation to the CxP SRB and Ares SRB.


Inadequate Procedures

   The CxP SRB and every CxP project SRB was not organized in accordance with FACA
   and included at least one non-Federal Government employee with a conflict of interest
   because NASA did not have adequate procedures to trigger an ethics review process for
   identifying conflicts of interest. NPR 7120.5D established the requirement that SRB
   members be independent but did not address what Agency officials should do to ensure
   independence. The IPAO’s draft SRB Handbook discusses ethics and independence and
   states that SRB member nominations should undergo an independence check but does not
   identify or establish procedures and processes for verifying independence.

   IPAO’s “Personal, External, and Organizational Independence, and Political Influence
   Self-Assessment,” September 28, 2005, further limited the independence evaluation
   because it does not require the same level of detailed information required for conflict-of-
   interest reviews of Federal employees or those serving on Federal advisory committees.
   For example, IPAO’s self-assessment form requires SRB candidates to identify their
   employer, or their clients in the case of consultants, only if the employer or client
   receives funding from the program or project under review. By comparison, Federal
   employees are required to list all sources of salary and other earned income in excess of
   $200 per year. When we compared the information disclosed on the self-assessment
   forms with the candidates’ biographies, we identified seven SRB members whose
   employers either received funding or competed for CxP or CxP project work. We
   determined that one cause for IPAO’s failure to identify these conflicts of interest was
   that the IPAO form did not require sufficiently detailed information.

   In addition, IPAO’s guidance does not require the OGC to review the self-assessment
   forms even though General Counsel is delegated the authority for coordinating and
   managing NASA’s ethics program, which specifically addresses conflict-of-interest
   issues. IPAO relied solely on its self-assessment form in making determinations about
   the candidate’s independence. As the General Counsel is the designated Agency ethics
   official for NASA, we believe that OGC staff could make a more informed determination
   about an SRB candidate’s independence and, especially, if candidates are required to list
   all sources of income.

   As evidenced by the results of our review, IPAO’s process and procedures for
   determining an SRB member’s independence and freedom from conflicts of interest were
   inadequate. As a result, NASA lacked assurance that SRB members provided impartial
   and unbiased opinions about CxP and the CxP projects’ success in meeting technical,
   schedule, and cost-related milestones.




REPORT NO. IG-09-011                                                                              11
                                                                                                            RESULTS



Potential for Violation of the Procurement Integrity Act

     NASA’s lack of assurance that SRB members were independent could possibly have
     caused a violation of the Procurement Integrity Act, 9 which prohibits improper disclosure
     of confidential Government procurement information. Two EVA Systems SRB
     members, who were also employees of companies that “teamed” to bid on the CSSS
     contract, had access to source-selection information not available to the general public
     and not disclosed publicly. 10 NASA’s inadequate process and procedures for
     determining an SRB member’s independence and freedom from conflicts of interest
     resulted in NASA not taking the precautions required by the Procurement Integrity Act to
     prevent disclosure of confidential source selection information.

     Procurement Integrity Act. The Procurement Integrity Act prohibits improper
     disclosure of confidential Government procurement information. Specifically, the
     Procurement Integrity Act prohibits a person from knowingly, other than as provided by
     law, obtaining source selection information before the award of the contract to which the
     information relates. The Act also prohibits a person who is advising or has advised the
     United States, with respect to a Federal agency procurement, from disclosing source
     selection information before the award of the contract. Source selection information is
     any “information prepared for use by a Federal agency for the purpose of evaluating a bid
     or proposal to enter into a Federal agency procurement contract, if that information has
     not been previously made available to the public or disclosed publicly.” Disclosure of
     source selection information would jeopardize the integrity or successful completion of
     the procurement to which the information relates.

     Constellation Space Suit Systems Contract. The CSSS contract is for the design,
     development, test, evaluation, and production of a space suit system to support astronauts
     while aboard the Orion Crew Exploration Vehicle and the Altair Lunar Lander and
     during human exploration of the surface of the moon. NASA issued a request for
     proposal for the CSSS contract on October 1, 2007, and accepted proposals through
     December 20, 2007. Two companies submitted proposals for the contract, Oceaneering
     International, Inc. (Oceaneering), and Exploration Systems and Technology, a joint
     venture between Hamilton Sundstrand Corporation and ILC Dover. On June 12, 2008,
     NASA awarded the CSSS contract to Oceaneering. Major subcontractors for
     Oceaneering included Cimarron Software Services, Inc. (Cimarron); Honeywell
     International, Inc.; United Space Alliance; David Clarke Company, Inc.; Air-Lock, Inc.;



     9
         Title 41, United States Code, Chapter 7, Section 423 (41 U.S.C.§ 423), “Restrictions on Disclosing and
         Obtaining Contractor Bid or Proposal Information or Source Selection Information.”
     10
          The OIG Office of Audits referred the EVA SRB conflict-of-interest issue to the Office of Investigations
          on July 1, 2008 to determine if a violation of the Act occurred. The Office of Investigations could not
          confirm that the SRB member used the source selection information to influence the outcome of the
          procurement. In fact, in that instance, the SRB member recused himself after learning his company was
          interested in the EVA competition.



12                                                                                         REPORT NO. IG-09-011
RESULTS



   Harris Corporation; Paragon Space Development Corporation; e-Pro; Raven Aerospace
   Technology; Bastion Technologies; and Ecliptic Enterprises.

   EVA SRB Members Employed by CSSS Contractors. We found that two of the EVA
   Systems SRB members worked for contractors that competed for the CSSS contract. One
   member was the President and Chief Operating Officer of Cimarron and the other was a
   quality procurement analyst for Honeywell Technology Solutions.

   The President and Chief Operating Officer of Cimarron was an original member of the
   EVA Systems SRB when it was established in March 2007. He served as the board’s
   expert on mission operations and participated in the EVA Project’s System Requirements
   Review in April 2007. The Cimarron official recused himself from future EVA Systems
   SRB activity in July 2007, stating that his company was “negotiating a teaming
   agreement with one of the EVA suit competitors.” IPAO preserved his membership by
   designating him as a non-participating member. After NASA awarded the CSSS contract
   to Oceaneering in June 2008, the EVA Systems SRB Review Manager formally
   terminated the Cimarron official’s membership. Furthermore, unlike the other non-
   Federal Government employees of the EVA Systems SRB, the Cimarron official was not
   under contract for his work on the board and, as a result, did not sign an agreement
   stating that he would not disclose source selection information to any party not
   authorized by the CSSS contracting officer.

   The Honeywell quality procurement analyst was also an original member of the EVA
   Systems SRB and served as the board’s expert on safety and mission assurance. He
   participated in the EVA Project’s System Requirements Review in April 2007 and the
   System Definition Review in May 2008. We did not find evidence of him informing the
   EVA Systems SRB Chairperson or the NASA Review Manager of Honeywell’s teaming
   with Oceaneering for the CSSS contract, nor did we find evidence of Agency officials
   reviewing his employment status for a potential conflict of interest prior to award of the
   CSSS contract. As of October 1, 2008, he remained a member of the EVA Systems SRB.

   Termination of CSSS Contract. NASA terminated and subsequently rebid the CSSS
   contract. On July 14, 2008, Exploration Systems and Technology filed a bid protest with
   GAO stating that NASA’s evaluation process on the CSSS proposals contained
   prejudicial errors. Included in the bid protest was a claim that Oceaneering possessed an
   unfair competitive advantage because employees of Oceaneering subcontractors served
   as members of the EVA Systems SRB. On July 21, 2008, Exploration Systems and
   Technology filed a supplement to the bid protest that identified additional procurement
   irregularities. After the GAO bid protest was filed, NASA announced it had determined
   that a compliance issue with the procurement process required termination of the contract
   with Oceaneering. Based on the compliance issue, the Agency decided to re-open the bid
   process to the two bidding companies.

   Potential for Future Violations. Procurement Integrity Act violations could potentially
   occur on future solicitations, such as the CxP’s Ground Processing Services Contract,


REPORT NO. IG-09-011                                                                            13
                                                                                        RESULTS



     because NASA does not have adequate procedures to identify and monitor the
     independence of SRB members. The contract is for ground processing, assembly,
     integration, test, launch, and recovery services to support the Ares I Crew Launch
     Vehicle and the Orion Crew Exploration Vehicle. NASA plans to release a request for
     proposal during the spring of 2009 and award the contract in the spring of 2010. This
     procurement could place one or more Ground Operations SRB members in violation of
     the Procurement Integrity Act because NASA has not adequately verified members’
     independence. For example, one member of the Ground Operations SRB works for
     ASRC Aerospace, a company currently providing engineering, configuration
     management, and project management services to the Ground Operations Project under a
     contract with Kennedy Space Center. If ASRC Aerospace competes for the Ground
     Processing Services Contract, the SRB member could be in violation of the Procurement
     Integrity Act because of information the member would have had access to during the
     life-cycle reviews.


Conclusion

     In establishing the CxP SRBs, NASA failed to abide by the legal requirements associated
     with establishing Federal advisory committees. NASA established an inadequate
     framework for assessing conflicts of interest. In the absence of an appropriate set of
     internal controls, almost one-third, 21 of 66 non-Federal SRB members, had conflicts of
     interest resulting in a lack of assurance that their individual views were not subject to
     inappropriate bias or that these persons did not seek advantage from their SRB
     participation. NASA could reduce the risk of SRBs that include non-Federal
     Government employees with conflicts of interest by establishing and implementing
     formal procedures and processes for checking the independence of nominees.


Management Actions

     In November 2008, we met with representatives from the Program Analysis and
     Evaluation Office and IPAO to discuss actions the Agency was taking in response to
     recommendations in our April 2008 report on the Orion SRB. After further analysis and
     consultation with the OGC, the Agency decided to pause most CxP SRBs activity while it
     addressed the FACA and conflict of interest compliance issues. The Associate
     Administrator for Program Analysis and Evaluation stated in comments dated
     December 18, 2008, that since the issuance of our April 2008 report, the interim
     configuration of the Orion SRB had been redesigned to not trigger FACA requirements.
     Although in discussions with senior management the Associate Administrator stated that
     organizing the SRBs under FACA remains an option, OGC stated in a February 6, 2009,
     meeting with OIG that the Agency is focusing on three other options that call for SRBs
     composed of (1) all civil service employees who would provide a consensus opinion; (2)
     civil service employees, with support from subject matter experts, who would provide a



14                                                                        REPORT NO. IG-09-011
RESULTS



   consensus opinion; and (3) a mix of civil service and non-Federal employees who would
   render individual opinions rather than a consensus opinion.

   Further, to prevent programs and projects from experiencing the potentially negative
   impacts of having SRBs with possibly biased SRB members, the Agency plans to adopt
   an annual review process for future SRB members similar to the process Federal
   employees undergo annually. IPAO plans to update the “Personal, External, and
   Organizational Independence, and Political Influence Self-Assessment” form to
   incorporate relevant elements of the Office of Government Ethics Form 450
   “Confidential Financial Disclosure Report,” which requires employees to provide
   information on reportable assets or sources of income, reportable liabilities, outside
   positions, and reportable agreements or arrangements. (See Appendix C for IPAO’s
   proposed updated form.) We intend to examine closely the Agency’s plans for
   addressing these issues to ensure compliance with Federal law and to assure that the
   redesigned system of internal controls protects the integrity of SRB activities.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Associate Administrator for Program Analysis and Evaluation,
prior to reactivating the Constellation Standing Review Boards (SRBs), should assure that
all SRBs are established in a manner consistent with Federal law and that the Standing
Review Board Handbook includes procedures that ensure identification of SRB members
who have conflicts of interest. The procedures should include, but not be limited to,
methods to determine whether nominees are employees of companies competing for work or
performing work on behalf of the program or project under review. In addition, Agency
ethics officials should be required to sign off on the independence of SRB participants and
an annual review to verify board members’ independence should be conducted.

   Management’s Response. The Associate Administrator for Program Analysis and
   Evaluation concurred with our recommendation and incorporated procedures into the
   revised Standing Review Board Handbook and NPR 7120.5D that will ensure
   identification of SRB members who have conflicts of interest. The procedures include
   methods to determine whether nominees are employed by companies performing work
   for the program or project under review. The Office of General Counsel reviewed the
   procedures to ensure that SRBs will be established in a manner consistent with Federal
   law. In addition, ethics officials will verify the independence of SRB participants and the
   Independent Program Assessment Office and the Office of General Counsel will review
   board members’ independence annually. The Associate Administrator expects that the
   Constellation SRBs will be reestablished in a manner consistent with Federal law and
   revised agency guidance by April 30, 2009.




REPORT NO. IG-09-011                                                                             15
                                                                                        RESULTS



     Evaluation of Management’s Response. Management’s actions are responsive. The
     recommendation is resolved and will be closed upon completion and verification of
     management’s corrective action.

Recommendation 2. NASA’s Chief Engineer should revise NASA Procedural
Requirements 7120.5D, “NASA Space Flight Program and Project Management
Requirements,” to include reference to, or inclusion of, the procedures incorporated into the
Standing Review Board Handbook.

     Management’s Response. NASA’s Chief Engineer concurred with our recommendation
     and is in the process of revising NPR 7120.5D with a NASA Interim Directive. The
     Directive will reference the Standing Review Board Handbook as the source of guidance
     for establishing SRBs and assessing SRB members for potential conflicts of interest.
     Estimated completion date for the Directive is June 30, 2009.

     Evaluation of Management’s Response. Management’s action is responsive. The
     recommendation is resolved and will be closed upon completion and verification of
     management’s corrective action.




16                                                                       REPORT NO. IG-09-011
APPENDIXES




                                                                           APPENDIX A


Scope and Methodology

   We performed the review from April 2008 through January 2009 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the review to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our review objectives. We performed fieldwork at Johnson Space Center and Langley
   Research Center.

   During our audit of the Orion Crew Exploration Vehicle Project, we found that the Orion
   SRB was not established in accordance with the Federal Advisory Committee Act;
   NASA Policy Directive 1150.11, “Federal Advisory Committee Act Committees,”
   September 22, 2004; or NPR 7120.5D, “NASA Space Flight Program and Project
   Management Requirements,” March 6, 2007. We reported this finding in “Final
   Memorandum on the Standing Review Board for the Orion Crew Exploration Vehicle
   Project” (IG-08-018, April 28, 2008). Based on that prior audit finding, we initiated this
   review to include all CxP SRBs (except the Altair SRB because it was temporary, from
   June 2008 to October 2008, and comprised members of the other projects’ SRBs).

   To determine the independence of the other CxP projects’ SRBs, we focused on whether
   NASA officials took appropriate actions to identify independence impairments or
   conflicts-of-interest issues and adequately reviewed and mitigated those issues. We also
   reviewed internal controls as they related to the establishment and operation of the SRB.

   We reviewed NPR 7120.5D and IPAO’s draft “SRB Handbook, Version 1.0,”
   August 1, 2007, for Agency policies, procedures, and guidelines pertaining to
   independence of SRB members. We also reviewed Title 41, United States Code, Chapter
   7, Section 423, “Restrictions on Disclosing and Obtaining Contractor Bid or Proposal
   Information or Source Selection Information,” for Federal requirements pertaining to
   access and release of source selection information.

   We reviewed the IPAO “Personal, External, and Organizational Independence, and
   Political Influence Self-Assessment” forms completed by members of the CxP and
   associated projects’ SRBs to identify potential conflicts of interest. We also looked for
   potential conflicts of interest by reviewing SRB members’ biographies contained in
   nomination letters that the IPAO submitted to convening authorities for each
   Constellation-related SRB.




REPORT NO. IG-09-011                                                                            17
                                                                                     APPENDIX A



     We interviewed the Director of the IPAO and review managers for each of the
     Constellation-related SRBs to find out what steps they took to identify, review, and
     mitigate conflicts of interest associated with SRB members. We interviewed five
     members of the EVA Systems SRB to verify information they provided on their
     respective self-assessments. We also talked with officials with Johnson Space Center’s
     Office of Procurement and Office of Chief Counsel regarding potential for violations of
     the Procurement Integrity Act associated with the CSSS contract.

     Use of Computer-Processed Data. We did not use computer-processed data to perform
     this portion of the review.


Review of Internal Controls

     We reviewed and evaluated internal controls the Agency established and implemented to
     identify, review, and mitigate conflicts of interest on the part of SRB members. We
     identified a weakness in the Agency’s identification of SRB members for conflicts of
     interest. Implementing the recommendations in this report should improve the internal
     controls over the identification of SRB members with conflicts of interest.


Prior Coverage

     Government Accountability Office

     During the last 5 years, the Government Accountability Office issued one report of
     particular relevance to the subject of our review: “Federal Advisory Committee Act:
     Issues Related to the Independence and Balance of Advisory Committees” (GAO-08-
     611T, April 2, 2008). Unrestricted reports can be accessed over the Internet at
     http://www.gao.gov.

     National Aeronautics and Space Administration

     Our office issued the “Final Memorandum on the Standing Review Board for the Orion
     Crew Exploration Vehicle Project” (Report No. IG-08-018, April 28, 2008). We
     determined that, although the Orion SRB met the definition of a committee that should be
     established and operated in accordance with Federal Advisory Committee Act, the
     Agency did not require the SRB to comply with the Act’s requirements. In addition, 6
     (32 percent) of the Orion SRB’s 19 members were not independent of the Orion Project,
     as required by NPR 7120.5D and the draft SRB Handbook. Unrestricted reports can be
     accessed over the Internet at http://oig.nasa.gov/audits/reports/FY08.




18                                                                        REPORT NO. IG-09-011
APPENDIX B




                                                    INITIAL SELF-ASSESSMENT


     Personal, External, and Organizational Independence, and
     Political Influence Self-Assessment
     Instructions to potential team member:
        1. Read the following questions in each section below and assess your personal
            situation as it applies to the review team for which you are being considered.
        2. Check the appropriate response.
        3. If your response is “yes,” please provide a detailed explanation of the
            circumstances for the specific situation that may impair you. While a “yes”
            answer will not automatically disqualify you from consideration, a review
            committee will consider your response(s) to determine your fitness for
            participation. Hence, a detailed explanation for each “yes” response is
            necessary to render and informed decision.
     When you have completed the self-assessment, sign, date, and fax this form to
     Michelle Calloway 757-864-3927.

     Disclosed impairments are not automatic grounds for disqualifying a potential team
     member from serving on an independent review team. Upon adjudication, the IPAO
     team lead will make a recommendation to the IPAO Director who make the final
     determination and approve/disapprove each candidate’s membership.

     I. Personal Independence
     Conflicting Financial Interests

     Will the contemplated consulting work in support of a particular program or project
     review have an effect on your own personal financial interests? Are you a
     stockholder in a company that receives funding from the program or project being
     reviewed? Do you own a patent or hold a copyright to a product or service or
     invention that is being considered for use by a program or project being reviewed?
     You also must be concerned about the financial interests of your spouse, your minor
     children, and outside persons or businesses that employ you. You should be
     concerned if anything you are asked to work on would affect them.


           No.       Yes. [Explain circumstances in detail and use additional sheets if
      necessary]: _________________________________________________________.




REPORT NO. IG-09-011                                                                         19
                                                                                    APPENDIX B




                             Seeking Other Employment

     Are you job-hunting, seeking employment or engaged in discussions with an
     organization, contractor, business entity or prospective new employer that could
     directly benefit from the program or project being reviewed? Have you received an
     offer of employment from a NASA contractor, subcontractor, or grantee in
     connection with a program or project being reviewed by NASA?


        No.        Yes. [Explain circumstances in detail and use additional sheets if
     necessary]: _________________________________________________________.

     Outside Activities and Public Speaking

     Have you ever written an article, published a paper, or taught a class that expresses a
     personal opinion, advocates a viewpoint, or proffers a professional judgment on the
     merits of the program or project being reviewed, or on the merits of the products and
     services associated with the program or project being reviewed? Do you belong to or
     are you a member of an organization that receives charitable contributions, gifts,
     monies, compensation, or honorariums from a contractor or person(s) that directly
     benefit from the program or project being reviewed?


        No.        Yes. [Explain circumstances in detail and use additional sheets if
     necessary]: _________________________________________________________.

     II. External Independence

     Impartiality in Performing Official Duties

     Will the contemplated consulting work being performed in support of a particular
     program or project review give rise to an “improper appearance,” that is, make a
     reasonable person who knew the circumstances of the situation (and had knowledge
     of the facts) legitimately question your fairness? For example, your fairness might
     reasonably be questioned if you were to perform an independent assessment of a
     program or project that could directly benefit a family member, relative, friend, or
     business partner.




20                                                                        REPORT NO. IG-09-011
APPENDIX B




        No.        Yes. [Explain circumstances in detail and use additional sheets if
     necessary]: _________________________________________________________.

                            Undo Influence and Coercion

     Do you feel you are unable to perform your work unfettered, uncompromisingly,
     openly, and effectively and free from schedule pressures, resource constraints, and
     opposing institutional, organizational or cultural forces? Do you feel you are unable
     to perform your work unfettered, uncompromisingly, openly, and effectively without
     fear of retribution, intimidation, threat, or prohibited personnel practices, including
     reprisal for whistle-blowing, as defined by law at § 2302(b) of title 5 of the United
     States Code (U.S.C.)?


        No.        Yes. [Explain circumstances in detail and use additional sheets if
     necessary]: _________________________________________________________.



     III. Organizational Independence

                            Current or Former Employee

     Have you ever been a superior or subordinate of an employee of a program or project
     being reviewed? Have you ever directly worked for the program or project being
     reviewed or been an employee of a contractor that receives funding from the program
     or project being reviewed?


        No.        Yes. [Explain circumstances in detail and use additional sheets if
     necessary]: _________________________________________________________.




REPORT NO. IG-09-011                                                                           21
                                                                                       APPENDIX B




                                  IV. Political Influence

     Do you serve as an officer, director, or trustee of a for-profit organization or a non-
     profit political advocacy group or do you belong to or support a political party,
     lobby, association, organization, group, or action committee that seeks to advance,
     promote or advocate legislation in support of a program or project being reviewed?


        No.         Yes. [Explain circumstances in detail and use additional sheets if
     necessary]: _________________________________________________________.




     V. Certification:

     I, ________________, have completed this self-assessment of my fitness to serve on
     the Orion Crew Exploration Vehicle Project Standing Review Board. I have read
     and answered all the questions and I certify that the statements I have made on this
     form and all attached statements are true, complete, and correct to the best of my
     knowledge.

     _____________________________                 ____________________
                   Signature                                      Date




22                                                                          REPORT NO. IG-09-011
APPENDIX C




                       PROPOSED SELF-ASSESSMENT




REPORT NO. IG-09-011                              23
              APPENDIX C




24   REPORT NO. IG-09-011
APPENDIX C




REPORT NO. IG-09-011   25
              APPENDIX C




26   REPORT NO. IG-09-011
APPENDIX C




REPORT NO. IG-09-011   27
              APPENDIX C




28   REPORT NO. IG-09-011
APPENDIX D




                       MANAGEMENT COMMENTS




REPORT NO. IG-09-011                         29
              APPENDIX D




30   REPORT NO. IG-09-011
APPENDIX D




REPORT NO. IG-09-011   31
                                                                                 APPENDIX E




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Engineer
     Associate Administrator for Program Analysis and Evaluation
     General Counsel
     Director, Independent Program Assessment Office

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Defense, State, and NASA Financial Management, Office of Financial
           Management and Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Space, Aeronautics, and Related Sciences
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




32                                                                    REPORT NO. IG-09-011
Major Contributors to the Report:
   Ray Tolomeo, Director, Mission Programs and Projects Directorate
   Loretta Atkinson, Project Manager
   Doug Orton, Team Lead
   Eugene Bauer, Auditor
   Jimmie Griggs, Auditor
   Barbara Moody, Auditor
   Cedric Campbell, Attorney Advisor
   Janet Overton, Editor




REPORT NO. IG-09-011                                                  33
                                                                             FEBRUARY 25, 2009
                                                                   REPORT No. IG-09-011




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY09 to obtain additional copies of this report, or contact the
Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Quality Assurance
Division, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
